HHS/OIG - Audit, "Delinquent Medicare Debt and Compliance With the Debt Collection Improvement Act by the Centers for Medicare and Medicaid Services,"(A-17-01-02003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Delinquent Medicare Debt and Compliance With the Debt Collection Improvement
Act by the Centers for Medicare and Medicaid Services," (A-17-01-02003)
March 12, 2002
Complete
Text of Report is available in PDF format (2.37 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that in recent years the Centers
for Medicare & Medicaid Services (CMS) has made significant progress managing
debt, especially at the Medicare contractors. However, serious problems remain.
We identified an estimated $670 million (absolute value) in misstated and misclassified
delinquent Medicare debt in information reported to the Treasury Department.
Misstatements included $450 million in reconciliation errors, $68 million in
unsupported or unrecorded transactions, and $152 million in classification errors
regarding the debts eligibility for referral to Treasury for collection. Further,
the CMS did not have an adequate process for pursing debt through the issuance
of required demand letters. We made specific recommendations for improving supporting
documentation, periodic reconciliations, and supervisory review of delinquent
debt activities. The CMS concurred with our recommendations.